© "The Brandi Law Firm Brian J. Malloy

bjm@brandilaw.com
"T (415) 989-1800
F (415) 651-9357

LICENSED IN CA, DC, NV, AZ

December 10, 2019

The Honorable Scott S. Harris

Clerk, Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: — Northern Trust Corporation, et al. v. Banks, et al.
19-440

Dear Mr. Harris:

I represent the Respondents, Lindie L. Banks and Erica LeBlanc, in the above-captioned
matter. The petition for writ of certiorari was filed on October 2, 2019, and Respondents waived their
response on October 29, 2019. The Court requested a response on November 18, 2019, and it is
currently due on December 18, 2019.

1 respectfully request a 30 day extension under Rule 30.4. No prior extension request has been
made. This request is being made due to, among other workload commitments, that on December 6,
2019, the District Court in this case issued an order denying in its entirety Respondents’ motion for
class certification. Respondents have until December 20, 2019 to file a request for permission to
appeal that ruling under Fed. R. Civ. P. 23(f). The additional time will allow Respondents to timely
file their Rule 23(f) petition and will ensure sufficient and adequate time to respond to the petition for
writ of certiorari. Petitioners take no position on the extension request.

With a 30 day extension, the response deadline would be January 17, 2020.

Very yp =
YY

Brian J. Malloy

Cc: Counsel for Petitioners

354 Pine Street, Third Floor
San Francisco, CA 94104

brandilaw.com
